No.

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2021

DERRICK EDWARDS -PETITIONER
VS.
DARREL VANNOY, WARDEN
LOUISIANA STATE PENITENTIARY - RESPONDENTS)
PROOF OF SERVICE
July
I, DERRICK EDWARDS, do swear or declare that on this date
b>. 2021, as required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on
each party to the above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United States mail, properly
addressed to each of them and with first- class postage prepaid, or by delivery to a third-party
comm ercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
DISTRICT ATTORNEY, 1ST JDC
CADDO PARISH
SOI TEXAS STREET
SHREVEPORT, LA., 71101-0000
I declare under penalty of perjury that the foregoing Is true and correct

Executed on July

C>2Q21.
Derrick Edwards

17

